No. 19-1041

In The

Supreme Court of the United States
Rostislav Khrapko,
Petitioner,
v.
Kristin Splain,
Respondent.
AFFIDAVIT OF SERVICE
I, Rostislav Khrapko, hereby certify that on April 6, 2020,
three (3) copies of the Petition for Rehearing in the abovecaptioned case were served via priority mail to the Counsel of
Record for all respondents, listed below:
Frederick A. Brodie
New York State Office
of the Attorney General
The Capitol, Albany,
NY 12224-0341
(518) 776-2317

Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Coming, NY 14830
(607) 368-7896
Sworn and subscribed before me on this 6th day of April
2020:

JOYCE J SMITH
Notary Public, State of New York
Registration #01SM6246551
Qualified In Steuben County
Commission Expires Aug. 8, 2

RECEIVED
APR 1 3 2020

